U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 29, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Zimmian Tabb v. United States, No. 20-579
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 2,
2020. The government’s response is now due, after one extension, on January 15, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0579
TABB, ZIMMIAN
USA

JOHN PATRICK ELWOOD
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-942-5992
JOHN.ELWOOD@ARNOLDPORTER.COM
JARED MCCLAIN
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH ST., NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
JARED.MCCLAIN@NCLA.ONMICROSOFT.CO
M
ILYA SHAPIRO
CATO INSTITUTE
1000 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
202-218-4600
ISHAPIRO@CATO.ORG
EVAN A. YOUNG
BAKER BOTTS LLP
98 SAN JACINTO BOULEVARD
SUITE 1500
AUSTIN, TX 78701-4078
512-322-2506
EVAN.YOUNG@BAKERBOTTS.COM

